2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

Legal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

MELINDA MITCHELL, individually and on
behalf of a class of all others similarly situated,
HARVEY MITCHELL, individually and on
behalf of a class of all others similarly situated,

Petitioners,
v.
CITY OF NEW YORK, a municipal entity,

NYC POLICE OFFICER JAMES SCHUESSLER,
SHIELD NO, 28718, POLICE OFFICER JOSEPH
BRINADZE, NYPD CAPTAIN JOSEPH GULOTTA,
NYPD SERGEANT DANIELLE ROVENTINI,
NYPD LIEUTENANT KATHLEEN CAESAR,
RICHARD ROES 1-50, NEW YORK CITY POLICE
SUPERVISORS AND COMMANDERS, JOHN DOES and
1-50 NEW YORK CITY POLICE OFFICERS, individually,
and in their official capacities, jointly and severally,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8295 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
Stato of Nebraska : VAS Qudraw- Kh
My Commission Expires Nov 24, 2020 «

Notary Public Affiant 38448

 

 
